9/8/2021

General_Account_Pricing_Information 2Q 2021.html

Pricing Supplement to the
Cardmember Agreement
The information provided below in this Pricing Supplement, along with the Cardmember Agreement(s) and the Addendum to the Cardmember
Agreement (as applicable) reflects certain account pricing and terms that were available to certain applicants that applied for and were approved
for certain credit card accounts on the last business day of the calendar quarter that ended on 6/30/2021. These account terms may not be
available after that date.
These documents are being provided to you for informational purposes only. If you apply and are approved for a credit card account with us, your
actual account terms will be based on the terms of the offer available at the time that you applied, what you are approved for and your actual
Cardmember Agreement will be the agreement sent to you when your account is first opened.
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
Purchases

13.99% to 25.99%

APR for Balance Transfers

13.99% to 25.99% APR. This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

25.24% to 26.24% APR. This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge you interest on purchases
if you pay your entire balance by the due date each month. We will begin charging interest on balance transfers,
checks and cash advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer
Financial Protection Bureau at http://consumerfinance.gov/learnmore

APR. This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$0 to $995

Transaction Fees:
Balance Transfer

Either $5 or 3% of the amount of each transfer, whichever is greater. We may from time to time offer you lower
Transaction Fees on Balance Transfers and Checks.

Cash Advance

Either $10 or 5% of the amount of each cash advance, whichever is greater

Foreign Transaction

0% - 3% of each transaction in U.S. dollars.

Penalty Fees:
Late Payment

Up to $40 depending upon the state that you live in at the time of account opening.

file:///C:/Users/SampathP/Desktop/Q2 2021/Barclays Bank Delaware/General_Account_Pricing_Information 2Q 2021.html

1/2

9/8/2021

General_Account_Pricing_Information 2Q 2021.html

Returned Payment

Up to $40 depending upon the state that you live in at the time of account opening.

Additional Check Related Fees
Check Stop Payment Fee

Up to $39.95 depending upon the state that you live in at the time of account opening.

Returned Check Fee

Up to $40 depending upon the state that you live in at the time of account opening.

How We Will Calculate Your Balance:
We use a method called "daily balance (including new purchases)". If you are a resident of Iowa at the time the account is opened, we use a method called
"average daily balance (including new purchases)". See Addendum to the Cardmember Agreement for more details.
The Prime Rate was 3.25% as of the last business day of the quarter that ended 6/30/2021.

file:///C:/Users/SampathP/Desktop/Q2 2021/Barclays Bank Delaware/General_Account_Pricing_Information 2Q 2021.html

2/2

